OIG Investigative Reports,Columbia, SC September 29, 2011 -  Former Inmate Sentenced for Charges of Federal Student Aid fraud Involving webster University in St. Louis
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
BILL NETTLES
UNITED STATES ATTORNEY
DISTRICT OF SPUTH CAROLINA
1441 Main Street, Suite 500 * Columbia, SC 29201 * (803) 929-3000
September 29, 2011
FOR IMMEDIATE  RELEASE
CONTACT PERSON::   Brad Parham
Assistant U.S. Attorney
Brad.Parham@usdoj.gov
(843) 665-6688
FORMER INMATE SENTENCED FOR CHARGES OF FEDERAL STUDENT AID FRAUD INVOLVING WEBSTER UNIVERSITY IN ST. LOUIS
Columbia,South Carolina — United States Attorney Bill Nettles stated today that MICHELLE OWENS, 36, of Florence, who is a former inmate at Leath, Correctional Institution in South Carolina, was sentenced Wednesday, September 28th , in federal court in Florence, South Carolina, for violations of federal student financial aid fraud and mail fraud. United States District Judge R. Bryan Harwell of Florence sentenced Owens to 51 months imprisonment and ordered to pay $128,852.00 in restitution.
Evidence presented at the guilty plea hearing established that Michelle Owens submitted fraudulent Webster University applications and fraudulent Department of
Education financial aid applications in the names of twenty-three different Leath, South Carolina CorrectionalInstitution inmates seeking admission and studentloans in the approximate amount of $467,500. Owens was confined to Leath from December 2007 to September 2008, and worked in the prison’s Education Department where she had access to the personal information of other inmates.
According to court documents, from December 2007 to October 2009, Owens submitted online applications for admission to WebsterUniversity's distance learning program in the names of individuals who were inmates at Leath without their knowledge. Owens intended to use the financial aid funds for improper non-education purposes. On those applications, Owens used several residential addresses located in South Carolina. Based upon the information contained on the applications, Webster University accepted the individuals and mailed the letters to South Carolina. Additionally, Owens falsely applied for federal student financial aid on behalf of the inmates by completing the Free Application for Federal Student Aid (FAFSA) either by computer over the internet or by paper application using the inmates personal information. Once Webster University received the required supporting documentation, they created a financial aid package for that "applicant" and mailed the award notification to the same South Carolina addresses controlled by Owens.
Owens received the excess financial aid intended for the inmate “applicants” through Higher One, Inc. in the form of debit/MasterCard cards which she cashed or used for personal expenses totaling $124,821.
This case was investigated by the Federal Bureau of Investigation and the PostalInspectionServiceandtheDepartmentofEducation. AssistantUnitedStates Attorney Brad Parham in the U.S. Attorney’s Office in Florence, South Carolina prosecuted the case, with the assistance of Assistant United States Attorney Hal Goldsmith from the St. Louis U.S. Attorney’s Office.
Top
Printable view
Last Modified: 10/05/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov